<html>
<title> - [H.A.S.C. No. 114-58] UPDATE ON THE F-35 JOINT STRIKE FIGHTER PROGRAM</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]








 
                            [H.A.S.C. No. 114-58]

            UPDATE ON THE F-35 JOINT STRIKE FIGHTER PROGRAM

                               __________

                                HEARING

                               BEFORE THE

              SUBCOMMITTEE ON TACTICAL AIR AND LAND FORCES

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                            OCTOBER 21, 2015

 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                                    


                                   ______

                        U.S. GOVERNMENT PUBLISHING OFFICE 

97-492                         WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001









                                     
  


              SUBCOMMITTEE ON TACTICAL AIR AND LAND FORCES

                   MICHAEL R. TURNER, Ohio, Chairman

FRANK A. LoBIONDO, New Jersey        LORETTA SANCHEZ, California
JOHN FLEMING, Louisiana              NIKI TSONGAS, Massachusetts
CHRISTOPHER P. GIBSON, New York      HENRY C. ``HANK'' JOHNSON, Jr., 
PAUL COOK, California                    Georgia
BRAD R. WENSTRUP, Ohio               TAMMY DUCKWORTH, Illinois
JACKIE WALORSKI, Indiana             MARC A. VEASEY, Texas
SAM GRAVES, Missouri                 TIMOTHY J. WALZ, Minnesota
MARTHA McSALLY, Arizona              DONALD NORCROSS, New Jersey
STEPHEN KNIGHT, California           RUBEN GALLEGO, Arizona
THOMAS MacARTHUR, New Jersey         MARK TAKAI, Hawaii
WALTER B. JONES, North Carolina      GWEN GRAHAM, Florida
JOE WILSON, South Carolina           SETH MOULTON, Massachusetts
                John Sullivan, Professional Staff Member
                  Doug Bush, Professional Staff Member
                          Neve Schadler, Clerk
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                            C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Turner, Hon. Michael R., a Representative from Ohio, Chairman, 
  Subcommittee on Tactical Air and Land Forces...................     1

                               WITNESSES

Bogdan, Lt Gen Christopher C., USAF, Program Executive Officer, 
  F-35 Joint Program Office, U.S. Department of Defense..........     2
Harrigian, Maj Gen Jeffrey L., USAF, Director, F-35 Integration 
  Office, U.S. Air Force.........................................     5

                                APPENDIX

Prepared Statements:

    Bogdan, Lt Gen Christopher C.................................    31
    Harrigian, Maj Gen Jeffrey L.................................    55
    Turner, Hon. Michael R.......................................    29

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    Mr. Jones....................................................    76
    Mr. Lamborn..................................................    80
    Ms. Speier...................................................    77
    Mr. Turner...................................................    73
    
    
    
    
            UPDATE ON THE F-35 JOINT STRIKE FIGHTER PROGRAM

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
              Subcommittee on Tactical Air and Land Forces,
                       Washington, DC, Wednesday, October 21, 2015.
    The subcommittee met, pursuant to call, at 3:35 p.m., in 
room 2212, Rayburn House Office Building, Hon. Michael R. 
Turner (chairman of the subcommittee) presiding.

 OPENING STATEMENT OF HON. MICHAEL R. TURNER, A REPRESENTATIVE 
  FROM OHIO, CHAIRMAN, SUBCOMMITTEE ON TACTICAL AIR AND LAND 
                             FORCES

    Mr. Turner. I call this hearing to order of the 
Subcommittee on Tactical Air and Land Forces.
    The subcommittee meets today in open session to receive 
testimony on the current status of the F-35 Joint Strike 
Fighter [JSF] program. I would like to welcome our witnesses, 
Lieutenant General Christopher Bogdan, F-35 Program Executive 
Officer; and Major General Jeffrey L. Harrigian, Director of 
the Air Force F-35 Integration Office. Thank you both for your 
service, and we look forward to your testimony today.
    This hearing continues the committee's ongoing oversight of 
the F-35 program since the program officially began in 2001. We 
all know that the F-35 is a complex program that has 
experienced issues with cost, schedule, and performance 
throughout its development.
    This subcommittee has held numerous hearings and briefings 
to better understand the critical need for the fifth-generation 
strike fighter capability, and to understand the issues facing 
the program.
    Most recently, the subcommittee visited Eglin Air Force 
Base where we were able to meet with both pilots and 
maintenance personnel of the Joint Strike Fighter. It is 
through this ongoing committee oversight that we have 
identified issues relating to the program, and in turn, have 
worked with the Department to help develop corrective actions 
to ensure the program remains on track. For example, in the 
fiscal year 2014, the subcommittee learned of software 
development problems and recommended legislation that would 
establish a team to review the F-35 software development 
program and make recommendations to fix these problems.
    For fiscal year 2015, the committee recommended legislation 
that would continue the Government Accountability Office, GAO's 
assessments and analysis of the development, testing, and 
production of the F-35 program. During our visit at Eglin, the 
subcommittee learned of issues with the F-35 maintenance system 
known as the Autonomic Logistics Information System, or ALIS, 
A-L-I-S.
    As a result, the subcommittee included a provision in its 
mark of National Defense Authorization Act [NDAA] for Fiscal 
Year 2016 that would require the GAO to review the ALIS program 
and provide a report to the congressional defense committees by 
April 1, 2016.
    The committee also recommended a provision that would 
require a review of the F-35 engine program by a federally 
funded research and development center to ensure that future 
engines will not be subject to the failure that caused an F-35 
engine fire on takeoff just last June.
    Each of the subcommittee's legislative recommendations over 
the past 3 years have been adopted in the annual National 
Defense Authorization Act. In the past month, the subcommittee 
has learned that the ejection seat does not meet the design 
specifications for lighter weight pilots. The specification for 
the ejection seat is that it needs to be able to accommodate a 
safe escape at pilot weights of 103 to 245 pounds. We 
understand that until this deficiency is corrected, pilots 
weighing less than 136 pounds will not fly the F-35 due to a 
high risk of serious injury that could result from having to 
eject. We look forward to our witnesses addressing this issue 
today and the plans to get this problem corrected.
    In closing, while strong oversight of the F-35 remains 
necessary, the value of the fifth-generation stealth aircraft 
is absolutely assured, like the F-35. In future conflicts, it 
is absolutely critical to successfully address these emerging 
threats and maintain air dominance in any overseas contingency 
operation.
    I look forward to all of our witnesses today and expect to 
hear from them what follow-up actions the program is 
undertaking to address the issues identified as a result of our 
delegation's visits to Eglin.
    Before we begin, I would also like to thank all of our 
colleagues. Ms. Loretta Sanchez has been detained. But as 
ranking member, when she returns if she would like at that 
point to offer her opening statement we will get to her opening 
statement.
    With that, we will begin then with General Bogdan.
    [The prepared statement of Mr. Turner can be found in the 
Appendix on page 29.]

   STATEMENT OF LT GEN CHRISTOPHER C. BOGDAN, USAF, PROGRAM 
 EXECUTIVE OFFICER, F-35 JOINT PROGRAM OFFICE, U.S. DEPARTMENT 
                           OF DEFENSE

    General Bogdan. Thank you, sir. Chairman Turner and 
distinguished members of the committee, thank you for this 
opportunity to address you regarding the F-35 Lightning II 
program. I am pleased to be joined today by General Harrigian, 
the Air Force's F-35 Integration Office lead.
    The F-35 Lightning II is of vital importance to our 
national security. And as the program executive officer [PEO] 
and program director, I'm committed to delivering an 
affordable, reliable, and sustainable fifth-generation fighter 
to our warfighters. The F-35 will form the backbone of U.S. air 
combat superiority for decades to come. It will replace legacy 
tactical fighter fleets of the Air Force, Navy, Marine Corps 
with a dominant multirole fifth-generation aircraft capable of 
projecting U.S. power and deterring potential adversaries.
    For our international partners and foreign military sales 
customers who are participating in the program, the F-35 will 
become a linchpin for future coalition operations and will help 
to close a crucial capability gap that will enhance the 
strength of our security alliances.
    The F-35 program today is executing well across the entire 
spectrum of acquisition to include development and design, 
flight test, production, fielding and base standup, sustainment 
of fielded aircraft, and building a global sustainment 
enterprise.
    The program is at a pivot point today where we are moving 
from slow and steady progress to what I call a rapidly growing 
and accelerating program. However, the program is not without 
risks and challenges, as these come with any program of this 
size and complexity. I'm confident that the current risks will 
be resolved and we will be able to overcome any future problems 
and deliver the full F-35 combat capability, including the U.S. 
Air Force [USAF] and Navy initial operating capability [IOC] 
declarations, in the future.
    Since the last time I appeared before this committee, the 
program has successfully completed a number of important 
events, not the least of which was helping the U.S. Marine 
Corps declare initial operating capability this summer. A few 
of this year's accomplishments include the beginning of our 
Block 3F, our final version of software, in flight test. Two 
successful ship trials, one for the U.S. Marine Corps above the 
USS Wasp, and one for the U.S. Navy on the USS Eisenhower.
    We delivered the first three IOC aircraft to the Air Force 
at Hill Air Force Base last month and delivery of the U.K. 
[United Kingdom] and Dutch aircraft at Edwards Air Force Base 
for participation in operational tests this summer.
    The rollout of the first flight, in-flight of the Italian 
F-35A from our FACO [fabrication, assembly and checkout], which 
is our fabrication and checkout facility in Italy last month. 
We also rolled out our first Norwegian aircraft. We have also 
completed the qualification of Australian and Italian air 
refueling tankers with the F-35. We have also started the 
ground testing of our 25 millimeter cannon months earlier than 
we originally planned.
    And just recently, we started U.S. Air Force and partner 
training at Luke Air Force Base. These are just a few of the 
accomplishments since the last time I spoke with you.
    Overall, the program has made good progress in development 
and flight tests. We are now about 75 percent complete with the 
entire flight test program. We still have technical 
deficiencies to correct, including the ejection seat, which we 
will talk about today, the Autonomic Logistics Information 
System, or ALIS, which I plan on talking about today, and 
various fuel system and structural shortfalls. But we have 
corrections in place for all of these issues and will be able 
to implement the solutions in the near future.
    With respect to aircraft production, the production line is 
becoming more efficient each and every day, and the price of 
all three variants continues to drop lot after lot. I expect 
this trend to continue well into the 2020s, and still believe 
that we can achieve our price target of an F-35A model with an 
engine, with fee, in fiscal year 2019 dollars, of about $80- to 
$85 million.
    We are closely monitoring the supply base as we begin to 
prepare for a ramp-up in production from 59 airplanes in lot 8, 
to 104 airplanes in lot 9, to 123 airplanes in lot 10, up to a 
final production rate of nearly 170 airplanes per year in the 
early 2020s.
    We are also seeing some improvements in the reliability and 
maintainability of the aircraft as a result of focused efforts 
on the supply chain, the repair cycle time of spare parts, 
spare part availabilities, and improved maintenance procedures. 
We are also on track with our organic depot standup, both in 
the United States, and in the Pacific and European regions. We 
have began the requirements validation and the initial 
acquisition planning for a follow-on modernization program that 
will begin at the end of our current development program in 
October of 2017.
    I am committed to establishing a lean, effective, 
modernization program with the appropriate government control 
and oversight to ensure that remains both affordable and 
transparent, while at the same time, effectively enhancing the 
F-35's capability for decades to come.
    With respect to risk and challenges, I see the completion 
of mission systems software development, ALIS development, and 
the previously mentioned fuel system and ejection seat 
deficiencies as our most prominent, current, technical risks. 
Our ability to stand up four separate reprogramming labs that 
create mission data files in time for all of our customers, and 
our ability to complete all the weapons envelope testing for 
Block 3F, as well as our ability to start OT, on time, are the 
major schedule risks to the program today.
    I will close by saying that I believe the programming is in 
a better position today than it was 1, 2, or 3 years ago. It is 
a growing and accelerating program that is making solid 
progress. The weapon system design is sound. The program is 
fundamentally on track. We remain confident that we will be 
able to deliver the full F-35 capability within the time and 
the money we have been given.
    As with any big, complex program, new discoveries, 
challenges, and obstacles will occur. However, we believe the 
combined government-industry team has the ability to overcome 
our current deficiencies and deal with future issues should 
they arise in order to successfully deliver on our commitments.
    The Joint Program Office [JPO] will continue executing with 
integrity, discipline, transparency, and accountability, 
holding ourselves accountable for the outcomes on this program. 
We recognize the responsibility the program has been given to 
provide the backbone of future U.S. and allied fighter 
capability for generations to come. We also recognize that our 
sons and daughters and our grandsons and granddaughters may 
some day take this weapon system into harm's way to defend our 
freedom and way of life. It is a responsibility that we never 
forget in the Program Office.
    Thank you again for this opportunity and I look forward to 
answering all your questions.
    [The prepared statement of General Bogdan can be found in 
the Appendix on page 31.]
    Mr. Turner. Thanks. General Harrigian.

STATEMENT OF MAJ GEN JEFFREY L. HARRIGIAN, USAF, DIRECTOR, F-35 
               INTEGRATION OFFICE, U.S. AIR FORCE

    General Harrigian. Thank you, sir. Chairman Turner, 
distinguished members of the Tactical Air and Land Forces 
Subcommittee, thank you for the opportunity to provide an 
update on the United States Air Force's progress toward 
delivering initial operating capability, IOC, for the F-35A.
    A combination of F-35 lethality, survivability, and 
adaptability, make it our platform of choice for operations in 
a highly contested threat environment. The aircraft state-of-
the-art sensor fusion, network interoperability, and broad 
array of advanced air-to-air and air-to-surface munitions, 
enable unmatched lethality well into the 21st century.
    The F-35's exceptional survivability is achieved through a 
combination of low-observable technologies, advanced electronic 
attack and electronic protection, and shared situational 
awareness. It will form the backbone of future joint and 
combined air operations enabling future joint force commander 
success.
    Today, sir, we have 79 F-35As delivered, and they have 
flown over 21,000 hours in our Air Force. The program is on the 
road to IOC for the Air Force. Specifically within the last 2 
months, we received our first three aircraft at Hill Air Force 
Base, and are flying them now at a high rate.
    This month, Air Force operational testers are flying with 
our IOC software load and building F-35 tactics, techniques, 
and procedures. We have work to be done, though. Specifically, 
we are concerned about the software capability we will get in 
our IOC load, ALIS software delivery, and the modification 
schedule for our jets at Hill. All that notwithstanding, we 
expect to declare IOC as planned in 2016.
    However, this is still a program in development, and 
challenges remain. We will continue to work closely with the 
Joint Program Office, Lockheed Martin, to ensure we achieve 
full warfighting capability. While IOC is an important 
milestone for the program, we must not lose sight of the goal 
of full warfighting capability. The program must develop and 
deliver 3F software on time. And we need to invest now in Block 
4 follow-on modernization to provide the warfighter with the 
most current and relevant capabilities required to meet the 
future threat.
    The capability advantage that the Air Force had enjoyed 
over potential adversaries is closing fast. And in modern 
warfare, if the Air Force fails, the joint force fails.
    Thank you again for this opportunity to discusses the F-35. 
I look forward to answering your questions. Thank you, sir.
    [The prepared statement of General Harrigian can be found 
in the Appendix on page 55.]
    Mr. Turner. I thank both of you. I have just got a couple 
of questions to get things started off. We have a number of 
members who have questions; want to make sure we get through 
everyone.
    General Bogdan, the ejection seat. Obviously it is not 
performing. This is supposed to be life-saving, not life-
threatening. Could you share with us more information about 
this? What is the problem? How is it being fixed? And what does 
it takes to implement the correction?
    General Bogdan. Yes, Congressman. If you will indulge me, 
it is a complex problem, so I will spend a little bit of time 
trying to clear up some of the misinformation that you might 
have.
    First and foremost, safety is always paramount in the 
program for me and my team. I would never, ever ask a pilot to 
do anything that I wouldn't do myself. And the airworthiness 
authorities that work with me on the Navy side and the Air 
Force side feel and act the same way. So we take this 
deficiency with the ejection seat and the safe escape very, 
very seriously. And let me explain what the problem is and what 
we are doing about it.
    So as we begin, as you said, Congressman, the ejection seat 
we have in this airplane was designed to cover the widest range 
of pilot weights and sizes that we have ever had in a fighter 
airplane. The seat and the ejection system is designed to deal 
with pilots down to 103 pounds all the way up to 245 pounds as 
you said. But it is also designed for different size pilots 
from the smallest pilots anthropometrically to the largest 
pilots. And the combination of the weight and the size means 
that we will be able to put more pilots in this airplane than 
any other legacy airplane before it.
    We do have deficiencies. We have found those deficiencies 
through the normal testing process. We have a number of 
deficiencies with the ejection seat, not all of which were 
found just recently. We have been testing the ejection seat for 
many, many years. And when you start testing a system like the 
ejection seat, what you do is you start from what we call the 
center of the envelope of that ejection seat, meaning the 
average weight, the average speed, the average altitude, and 
then you work your way outside to the edges of that envelope. 
And as you get out to the edges of the envelope in terms of 
speed and in terms of the weight of the pilots, things become 
more severe and are harder to achieve in terms of safety.
    The test that occurred on 27 August of this year that 
resulted in the Air Force and the Navy restricting pilots below 
136 pounds was a test at the very edge of that envelope. It was 
a low-speed test, with the lowest weight pilots we have. And if 
you drew that envelope, it would be on the very, very corner of 
it. So it is a difficult place to be able to design the 
ejection seat for. But having said that, after that test, we 
recognized that there was a deficiency.
    That is a different deficiency than a few of the other 
deficiencies I am going to talk about which encompass all of 
the problems that we are having with the ejection seat. So let 
me start and talk about a few of the other issues that we have 
had on the seat that we are in the process of fixing, and then 
I will get to the last problem, the one in which resulted in 
restricting pilots less than 136 pounds, because all the other 
problems that I am going to talk about came with no 
restrictions. We continued to fly with all sizes and all 
weights of pilots.
    So, in the ejection sequence, there are three important 
portions of that process. The first is what we call catapult, 
when the seat gets blasted out of the airplane. For a 
lightweight pilot today, less than 136 pounds, when he or she 
goes up the rails of the airplane in that catapult, his or her 
neck gets pushed down like that.
    When we initially did the testing on that condition, what 
we found was if the pilot has the helmet on his head or her 
head, and that helmet weighs more than 4.8 pounds, then the 
neck loads for that lightweight pilot, by a very little bit, 
exceed what we would consider to be perfectly safe. So what did 
we do? The first thing we did was we began taking weight out of 
the helmet to ensure that every helmet we have is going to be 
weighing less than 4.8 pounds.
    Today, our helmets weigh about 5.1 pounds, so we are 
talking about 6 ounces of weight to get out of the helmet. We 
are developing that new helmet that weighs less than 4.8 pounds 
today. We never had to restrict lightweight pilots for that 
catapult phase because the neck loads that they would 
experience with that, even with that heavier helmet, were so 
close to the safety limits that the airworthiness authorities 
thought that that risk was quite acceptable. And I agreed with 
that. I did the risk assessment with my team and I give it to 
the airworthiness authorities, and they decide. So that was 
problem number one, which we are fixing with a lighter weight 
helmet today that resulted in no restrictions on who could fly 
the airplane.
    The second problem is once the ejection seat leaves the 
airplane, you get wind blast, that is because the ejection seat 
is moving at hundreds of miles an hour, and as it comes away 
from the airplane, it is almost as if you put your hand out of 
your car as you are driving and you feel that wind blast.
    In this instance here, the pilot's head gets forced 
backward instead of forward. Once again, in our testing what we 
found out was if a lightweight pilot, less than 136 pounds, has 
a helmet that weighs more than 4.8 pounds, then that neck 
stress going backwards is higher than what we would like it to 
be, but not so high as that we would need to have restricted 
pilots from flying the airplane.
    So the solution to both those problems, the catapult 
problem and wind blast problem, are to reduce the weight of the 
helmet. We have been ongoing with the development of the new 
helmet and the new weight for about 6 months. It will take 
about another year for us to finish that to ensure that every 
helmet is less than 4.8 pounds.
    We did have one pilot at this period of time that was 
flying the airplane that was less than 136 pounds. And the 
reason why that pilot could continue to fly, even with those 
known risks, was because we hand-built him a helmet that 
weighed 4.7 pounds. We cannot manufacture today on the 
production line in any mass quantity a helmet that weighs less 
than 4.8 pounds, that is why we are redesigning it. But for 
that particular pilot, we took pieces and parts and we 
fabricated a helmet that weighed less than 4.8 pounds; that was 
why that pilot, even during this known-risk area, was able to 
continue to fly. So those are two problems being solved with 
one solution that we should have done in about a year.
    The third problem we found during normal testing occurs in 
what we call the opening shock phase of the ejection when the 
parachute on the back of the seat comes out. In this instance 
here, when that parachute comes out, once again, the pilot's 
head moves forward. In this instance here, the only pilots that 
are affected by the opening shock being too strong and causing 
the neck loads to be above what we would consider safe is, once 
again, that lightweight pilot.
    The risk of that happening, though, was low enough that the 
airworthiness authorities felt that it was not significant 
enough to have to restrict anybody from flying the airplane 
when we found that problem. But when we did find that problem, 
and we found that one probably about 8 or 9 months ago in 
normal testing, we already began a solution.
    The solution to that problem for the lightweight pilot is 
just to delay that parachute coming out by a fraction of a 
second. Because as the seat comes out and hits the wind blast, 
it begins to decelerate. And if you wait just a fraction of a 
second before you put that main chute out, the seat has 
decelerated enough so that the force when the parachute comes 
out isn't as severe. To get to that solution, we are putting a 
little switch on the side of the ejection seat that when the 
pilot climbs up into the cockpit, can set that at heavyweight 
or lightweight.
    There were a number of ways we could have solved that 
problem. We could have put an automatic sensing system into the 
seat, much like when you sit in your car on the passenger side 
and the seat knows you are there and the air bag gets 
energized. We also could have put a switch on the seat that 
would have had the maintainers put it in the heavy- or 
lightweight position. We went back to the warfighters and we 
said, What solution do you want? Because we can solve this 
problem in a number of ways. And they said ``we want the pilot 
to be responsible for moving that switch. We want he or she to 
be responsible for ensuring that it is in the right position 
for their safety.'' Thus, we are building that switch on the 
side of the seat; as the pilot climbs up, they can go light or 
heavy.
    Mr. Turner. General, as I said, we have a number of people 
who want to ask questions, so I am going to cut you off at that 
point.
    General Bogdan. Okay.
    Mr. Turner. Thank you for the in-depth description of that 
issue and problem. Obviously there are two aspects of it. One, 
finding a solution; and two, its implementation of the 
solution. So we are looking forward to both your confirmation 
of if all the problems have been identified, and two, the 
implementation of the solutions in a manner where our committee 
can be satisfied that those really will address the issues.
    General Bogdan. Yes, sir.
    Mr. Turner. Now, General Harrigian, the--everybody on the 
committee recognizes the need for F-35 capability, everybody 
recognizes that not having the F-35 capability goes to an issue 
of our no longer having air dominance. It is we win versus we 
lose. Everybody recognizes that one of the difficulties and 
problems with this program has been the concurrency, that we 
are both inventing at the same time that we are producing, and 
that as a result of that, we will have delays, cost overruns, 
and at times, there will be problems that will have to be 
identified that then need to be fixed, as General Bogdan was 
just testifying. There have been obviously a number of those.
    But the biggest concern that we all have is not as problems 
arise, can they be addressed, but an assurance that when we get 
to the end, that this F-35 capability that we all know we need 
is actually the capacity that we demanded, that that plane 
performs as it is supposed to.
    Now, January 25 flight tests demonstrated that the F-35 was 
not as maneuverable as an F-16, that the aircraft is supposed 
to replace in a dogfight. Can you comment on the conclusions of 
that test and the implications of the F-35 in combat?
    General Harrigian. Yes, sir, Chairman. To go back to that 
flight test, as a reminder, that was one of the very first 
developmental test sorties that were flown to better understand 
the slow-flight characteristics of the airplane. Since that 
initial sortie, we have now been able to put the airplane in 
the hands of our operational testers. So these are the folks 
that are now ringing out the tactics, techniques, and 
procedures for how we will fly the airplane in combat.
    In fact, sir, over the course of the last month, they have 
been developing some specific exercises to better understand 
the characteristics of the airplane, and that would include 
post-stall acceleration, how the airplane turns, to prepare 
them to do what we would call basic fighter maneuvers, which is 
where they fight one against one to see how the airplane 
performs in both an offensive and defensive perspective.
    Sir, the results of that, and I can share with you that I 
just talked with them last Friday, is they have been very 
pleasantly surprised on how the airplane is performing, it has 
been very positive. What they are finding is that as they 
arrive in the post-stall regime, the airplane is extremely 
stable, so stable, in fact, that as they began the testing, 
they initially had 150 knots minimum air speed requirement. 
They have since removed that. And that is how we are going to 
go out and train, with no minimum air speed requirement, which 
is really a testament to how well the airplane is performing.
    In that environment we will continue to learn. What I would 
offer to you is that we are still in the nascent phases of 
fully understanding how the airplane will employ in that 
environment. But that capability, in my mind, is going to be 
there.
    I would offer to you that as one of the early F-22 pilots 
that I was, we had some of the same learning curve issues. We 
had to go out and fly the airplane and fully understand across 
the regime of where we were going to employ it, how to best get 
the most out of the airplane. That is what we are going to do, 
and I think the airplane is going to deliver, sir.
    Mr. Turner. I appreciate your reference to that. Even the 
Wright brothers, after they invented the plane, had to learn to 
become pilots. We appreciate that process.
    I want to ask unanimous consent that non-subcommittee 
members, which currently include Ms. Speier and Mr. Lamborn, be 
allowed to participate in today's hearing, and Mr. Cooper. 
After all subcommittee members have had an opportunity to ask 
questions.
    If I hear no objections, non-subcommittee members will be 
recognized at the appropriate time for 5 minutes. Turning now 
to the next questioner, which will be Mr. Walz.
    Mr. Walz. Thank you, Mr. Chairman, and Generals, thank you 
for taking the time to come and for continuing to update us on 
this. I think it is critically important.
    I want to go back to April's hearing, because I think it is 
important for us to build on what we asked and to get on. And 
in that hearing, I asked what is our next hearing going to look 
like when we come? And at that point in time, Secretary 
Stackley said, ``We will have the United States Marine Corps 
version, completion of 3i testing and 3F testing, and we will 
be able to see the end of R&D [research and development] 
costs.'' Are those things panning out?
    General Bogdan. The Marine Corps has declared IOC and is 
flying operational missions at Yuma today, sir, so I would put 
a check in that box. We are completed with all mission system 
testing for 3i. We intend on delivering that 3i software to the 
field in January. As General Harrigian said, we have already 
handed that software to the OT [operational testers] testers so 
they can wring it out. So I would put a check mark there.
    For 3F, I am not sure if Mr. Stackley was referencing when 
we would have 3F done. But I have always contended and always 
told this committee that I thought that the schedule for 3F had 
about 4 to 6 months of risk in it.
    I just recently did another schedule risk analysis and took 
a look at our schedule and our plans. What I will tell you is 
that that 4- to 6-month risk is now down to about 3 to 4 
months. And we believe that the full 3F software capability on 
this airplane for the A model will be out into the field in 
August of 2017. That is a good year before the Navy needs it 
for IOC, and a good 6 months before the SECDEF [Secretary of 
Defense] has to certify that the airplane is going to be fully 
3F capable.
    So I think that risk is working its way down. As we get out 
of the business of testing 2B, which we are done with, and 3i, 
the entire test fleet now is being transferred over to 3F, and 
therefore, I think we are going to be catching up.
    Mr. Walz. Thank you, General, that is helpful. I think it 
is important for us to see where we are at, and it is hard to 
get exactly right. Can you explain to me what the concurrence 
is with the Marine Corps on where I am getting the folks that 
there is a little bit of controversy on what they are saying, 
they are flying their IOC. That is for their mission what they 
need to have done. It is good with them.
    General Harrigian. Yes, sir. In fact, I would say that they 
are now flying the airplane operationally. They are out 
employing the airplane in the missions that they had described 
for their IOC. And I think the result has been very positive 
and the feedback from them has been well received.
    General Bogdan. Sir, I might add that the services defined 
for me what they need to declare IOC. And the U.S. Marine Corps 
takes a look at the legacy airplanes that they have and how 
they intend on employing the airplane, and they created a list 
of criteria that they needed to meet to declare IOC. The Air 
Force has done the same thing. They are different lists, 
because the Air Force intends on using the F-35 differently 
than the Marine Corps.
    My promise to the Air Force is, I will give them everything 
they need to declare IOC by August of 2016. But they will fly 
the airplane differently and use it in a different way than the 
Marine Corps.
    Mr. Walz. Okay. And General Bogdan, you did a nice job last 
time of explaining to a layman what happened with that June 23 
fire, the heat issue and all of that. Where is that at, at this 
point, in terms of corrections?
    General Bogdan. Sir, we have already validated the full 
correction to the engine problem. Every engine coming off the 
production line since about 7 months ago had the fix in it so 
we are producing fully capable engines right on the production 
line. We have 134 airplanes out in the field today. Sixty-one 
of them have been retrofit with the new parts so that there is 
no longer a restriction on them, that is about 44 percent. By 
June of 2016, all 134 fielded airplanes will have the same fix 
in them that the production airplanes are now going down the 
production line with. So in my mind, it was a problem, it was 
unfortunate, but we are putting it behind us.
    Mr. Walz. Did we learn anything that goes beyond the 
specific issue in that in terms of the testing standard in that 
of what we can extrapolate going forward from that incident?
    General Bogdan. Yeah, one of the things that we did learn 
was that the design of that portion of the engine is very 
similar to other fighters that we have, and there was an 
assumption made that since those other fighters didn't have 
this problem, that the F-35 wouldn't have this problem. So some 
of the engineering analysis I won't say it was shortcut, 
because that is not the right word, but some of the assumptions 
that they made in the original engineering analysis assumed 
that the engine was going to react as if it were in the other 
airplane, and that was not the case. And that was not the case 
because the F-35 maneuvers differently than any other airplane, 
and the engine actually shifts and moves and bends differently 
than that other airplane, causing that.
    Mr. Walz. So will that change now as we go forward? I hate 
to use the term--we assume that they will not do that in the 
future, that they will go back to the beginning?
    General Bogdan. So part of what we did was we ensured that 
the models that both the government and the engine 
manufacturer, Pratt & Whitney, was using, incorporated the new 
knowledge about the F-35 and the assumptions that we made when 
we first designed it. So at least for this engine, sir, we are 
not going make that same kind of mistake, and Pratt & Whitney 
has learned that lesson.
    Mr. Walz. I thank you. I yield back, Mr. Chairman.
    Mr. Turner. Thank you. Mr. Cook.
    Mr. Cook. Thank you, Mr. Chairman. Generals, there was an 
election this week in Canada, and it appears Mr. Trudeau is 
going to be the winner of that election. Correct me if I am 
wrong, but I believe he made some preelection statements that 
Canada would not purchase the F-35s, and I think they were in 
for 65. So the question is about affordability. If a partner 
drops out of that, and I don't even know--I am not a lawyer, I 
am dangerous enough as a Marine at one time--is that going to 
have an impact on cost, or what have you?
    General Bogdan. I am pretty sure this is my question. So 
let me start off by saying, it wouldn't be appropriate for me 
to speculate what Canada will or won't do, so I won't provide 
any opinion about that. But--and I will also tell you that I 
have received no official notification from Canada about the 
change in status for them today.
    Having said that, I am prepared to tell you what the impact 
to the program would be if that were the case and let me 
explain that to you. So first, the current development program 
that ends in 2017 would have--there would be no effect 
whatsoever if Canada were no longer a partner, because they had 
paid all the money into the development program, and all the 
services have already paid, and we intend on finishing the 
development program with the money we have. So there would be 
no effect on the current development program.
    Not the case for production and the price of the airplane. 
If any partner, or any service, moves airplanes to the right or 
takes airplanes out, the price of the airplane for all the 
other partners and all the other FMS [foreign military sales] 
customers, and all the other services goes up a little bit.
    In this instance, if there are 65 less A model airplanes in 
that production profile from any country, whether it be Canada 
or someone else, we have estimated that the increase in price 
to everyone else is about .7 to 1 percent. For an A model today 
that is about $1 million a copy for everybody else. So there is 
an impact to the price of the airplane for everyone else if 65 
airplanes are removed from the production flow.
    There are other impacts. Going forward, we have a follow-on 
modernization program, and we have future sustainment of the 
airplane that the partnership shares in that cost. Canada's 
share of that cost was 2.1 percent. So if Canada is no longer 
in the program, that 2.1 percent cost of future sustainment and 
follow-on modernization will have to be spread among the other 
partners and the other U.S. services, because that is a cost 
that has to be paid and it wouldn't be paid by a partner who is 
no longer a partner.
    The last one has to do with industrial participation. 
Today, there are many Canadian companies building pieces and 
parts for the F-35 program. We do not have a set rule as to 
what happens to that industrial participation if a partner 
reduces airplanes, adds airplanes, or even leaves the program. 
There are no set rules. But it is my opinion that the remaining 
partners and our industry partners are going to have a 
discussion about what to do with all of the industry in Canada 
that is building pieces and parts for the airplane.
    Mr. Cook. Thank you, General. I have one more question. I 
apologize for the nature of the question, this is an infantry 
guy who is going to ask a logistics question. I did have to 
serve as a logistics officer, and it left an indelible mark on 
me, and not very good, I might add. You know we get more and 
more briefs about the engine, everything else, and I am 
thinking about the maintenance of a brand new fifth-generation 
aircraft that, I guess would be fourth and fifth maintenance, 
or degrees of maintenance that we would have to do. Do we have 
the parts and the technicians that are in place right away to 
handle this very, very sophisticated piece of gear, or are we 
going to have to change on the fly, and is there money 
available for that?
    General Bogdan. So I will answer the first part of that and 
I will let General Harrigian give you the Air Force's 
perspective. As the airplane continues to mature, we are 
building a maintenance force through training at Eglin Air 
Force Base that continues to have to understand the changes we 
make to the airplane, because we are not done developing it. 
And older airplanes, believe it or not, are being maintained 
differently than the newer airplanes, because quite frankly, 
the newer airplanes are in better shape. So we will have to 
continue to update the maintenance manuals, the parts supply 
chain and things until we get the fleet of airplanes up to a 
common standard.
    It is a problem that occurs on most programs. We have it a 
little more severe because of the level of concurrency we have. 
But you are right, Congressman, that we will have to continue 
to train our workforce as we continue to change the airplane, 
and I don't think that will change for quite a while.
    Mr. Cook. Thank you.
    Mr. Turner. Mr. Moulton.
    Mr. Moulton. I thank you, Mr. Chairman. Gentlemen thank you 
very much for your service and for taking on this difficult 
project. I know you haven't been asked to bring the best 
looking date to the dance, and that is not an easy thing to do.
    You know, I am new to this relatively, my background is 
also as an infantryman. And I have always taken the perspective 
on the F-35 that there are a lot of mistakes that have been 
made, there have been an awful lot of cost funds that have been 
arguably wasted over the years. This is far more expensive than 
any of us anticipated. But we are far enough down the line now 
where we just have to make it work. Would you agree with that 
statement?
    General Bogdan. Sir, I would agree that without armchair 
quarterbacking or trying to figure out why decisions were made 
in the past, that we have incurred significant schedule and 
cost increases in the past on the program. Some of them are 
normal to programs, others were results of decisions that were 
made.
    What I would like to add, though, is since we rebaselined 
the program in 2011, we have not had a single cost increase and 
we have not asked the Congress or the partners for an added 
penny since 2011. So I believe----
    Mr. Moulton. It is a great achievement, but it is quite a 
baseline.
    General Bogdan. Yes, sir. I would agree with you that in 
2011 when we rebaselined, we added 2 years and a few billion 
dollars to the program.
    Mr. Moulton. Now several of the analysts I have spoken to 
have commented that one of the fundamental mistakes may have 
been trying to incorporate so many mission capabilities into a 
single aircraft, rather than having aircraft built for more 
specific specifications. I mean, the F-22 program in contrast 
to the F-35, I think most folks think is quite successful. 
Would you agree with that statement as well?
    General Bogdan. I know very little about the F-22 program, 
so I will ask General Harrigian, who flew the airplane, to 
maybe comment on that.
    General Harrigian. Sir, the only comment I would offer to 
you is that in the early years of F-22, we had some of the very 
similar types of problems from software fusions, taking 
software from the lab and making it work in the airplane. And 
quite frankly, I think that is why the Chief asked me to do 
this job, because there were some lessons that we needed to 
make sure were brought forward into the F-35.
    So my response would be while single-mission airplanes 
which initially we thought the F-22 was going to be, we ended 
up making it multi-mission because we needed it for capacity 
across the joint fight. My perspective would be as we looked at 
the F-35, we needed it to be able to accomplish several mission 
sets, so that as we looked into the future we had the capacity 
we needed to execute all those different missions for the joint 
force commander.
    Mr. Moulton. Thank you. I guess where I am coming at 
fundamentally is that there are an awful lot of folks here on 
the committee I think, and in Congress in general, who feel 
like we have invested a lot of money, and we have got to make 
sure this thing works. But at a basic level you don't make 
economic decisions based on sunk cost. I mean, that is a pretty 
fundamental economic principle. And so my question is, who in 
the Air Force is looking at this project from a much higher 
level and saying, is this still the best decision to buy the 
number of airplanes that we have, or should we be talking about 
potentially, not for certain, but potentially devoting 
resources to accelerating the development of the next 
generation of aircraft, or perhaps accelerating the development 
of the next generation of aircraft, multiple, that would 
fulfill different mission sets, and maybe not be susceptible to 
the same problems this program has encountered?
    General Harrigian. Yes, sir. In fact, the Chief has 
directed, and they are actually reporting to him, what is 
called an enterprise capability team to get exactly after your 
question of as we look into 2030, what should this look like? 
As we go forward, and we look at the required mix of what 
capabilities we need versus the future threats that we envision 
out there, what is the right mix of capabilities that the Air 
Force will need? They are there to report out to him in the 
early part of next year, and I think that will be a real good 
opportunity to get a better understanding of how we see 
ourselves moving forward.
    Mr. Moulton. Thank you very much. Mr. Chairman, I would 
respectfully request that we entertain that discussion as part 
of our debate about the F-35, because I think it is very easy 
in this environment to get so consumed with the challenges and 
problems of this one program, to not be thinking ahead from a 
perspective that we shouldn't be basing decisions on sunk 
costs, and think about what the best decisions are going 
forward to meet the threats of 2030, which could, indeed, 
include cutting back on the current program. Thank you very 
much. And I yield my time.
    Mr. Turner. And I will invite you. We go down to Eglin on a 
regular basis to actually look at the operation of the plane, 
and we have a number of classified briefings that will give you 
a greater fidelity of what this plane actually does, and what 
the needs and threats are. And I think at that point, you will 
probably be very satisfied. I appreciate that we continuously 
ask that question. It is not a question that we should never 
stop asking, but I do think as you become more familiar with 
both what the operational capabilities of this plane are, and 
the current threats which is what this plane is designed to 
address as they're evolving, that you will similarly come to 
the same conclusion that we did in the National Defense 
Authorization Act.
    Mr. Moulton. We shall see, Mr. Chairman.
    Mr. Turner. I am going to Martha McSally.
    Ms. McSally. Thank you, Mr. Chairman. And thank you 
gentlemen. Let me first say that I am one of those pilots that 
would be at the quote, unquote, ``edge of the envelope'' of 
what you talked about there. Would have to gain about 15 pounds 
in order to be able to fly the F-35 today. Just so I 
understand, the little switcheroo thing you are talking about 
that the pilots are going to have to move, delaying the chute 
coming out, is that putting them at increased risk though, in, 
like, a zero-zero situation, where obviously every nanosecond 
actually counts?
    General Bogdan. Yeah, actually as it turns out, ma'am, for 
a lightweight pilot, delaying the opening of the chute until 
the seats slows down does not increase at all the risk of 
ground impact or that pilot getting out of the seat because a 
lightweight pilot in a catapult phase gets shot up higher.
    Ms. McSally. Okay, got it.
    General Bogdan. We had margin
    Ms. McSally. Got it. Okay. Thank you. And let me first say, 
like the chairman said, we need a fifth-generation fighter 
capability, strong supporter of us developing this capability. 
As an airman myself, people take, I think sometimes for granted 
air superiority and what that takes, with our near peers in 
making sure we have denied access. I have been to the factory 
myself and strongly support us developing this capability for 
national security and our warfighter. But I am concerned about 
this airplane is replacing all of our legacy fighters and the 
whole ``jack all trades, master of none,'' and specifically, it 
replacing the A-10 in the close air support [CAS] missions that 
it uniquely brings to the fight.
    When we talked in April, we had a discussion about some 
limitations in that replacement of the unique capability in 
close air support. And I will just run through them just as a 
reminder. In the A model, some of these were night capability, 
lack of the ability to pass nine lines via data, time on 
station being 20 to 30 minutes. But then even in the follow-on 
capabilities, the munitions only 180 bullets, time on station 
being only 45 minutes, and Dr. Gilmore agreed that the F-35 
would not be able to survive a direct hit like the A-10 can, 
and still allow the pilot to at least fly to friendly territory 
so that they are not taken POW [prisoner of war] and lit on 
fire in a cage like we have seen happen to the Jordanian pilot. 
So these are really important capabilities.
    So the shortfalls were identified in the April hearing. I 
was glad to see that in August, Dr. Gilmore announced that 
there would be a head-to-head test against the A-10 and the F-
35, but I don't want to put words in your mouth. I think you 
were not supportive of that test, and I think you said it 
wasn't a good use of taxpayers' money. I disagree with you 
there, General Bogdan. I think it is a very good use of 
taxpayers' money.
    And if the F-35 is going to replace the A-10, we need to 
identify whether we are going to have a decrease in the unique 
capabilities in that mission set, and that includes the loiter 
time, the lethality, 1,174 bullets, the ability to take a 
direct hit, and all that the A-10 brings to the fight.
    So I just wanted to get your perspective on the record 
about the head-to-head test, how that came about. And also, I 
am skeptical about it, quite frankly, with all the things we 
have seen the Air Force trying to do to go against the will of 
this Congress and back door retiring the A-10. You can set up a 
test to have any sort of result you want, you know. So is the 
test going to specifically address not high-end, high-
sophisticated air defense circumstances, but where we have air 
superiority and those unique capabilities of the loiter time, 
the lethality, the maneuverability, and to do a continuous cast 
and take a direct hit, will that be a part of that test?
    General Harrigian. Ma'am, if you don't mind, I will come 
back first. I think--probably familiar that the Chief came back 
and said we are supportive of executing comparative testing.
    Ms. McSally. After he called it silly, but yes.
    General Harrigian. And so at this point right now, we are 
working closely with our Air Force Operational Test Center 
[OTC] folks. We are working closely with DOT&E [Director, 
Operational Test and Evaluation] to formulate exactly what that 
test will look like.
    Ms. McSally. Okay.
    General Harrigian. Specifically looking at multiple 
scenarios, both in contested and permissive environments, 
looking at different ranges, time to arrive on target, loiter 
time, all those types of things will be incorporated for the 
appropriate analysis to ensure that at the end of the day, we 
are delivering the platform that is effective and suitable in 
the environments we are going to operate it in.
    Ms. McSally. Great. I am interested in continuing to 
interact and see how that test is going.
    General Bogdan, do you have anything else to add?
    General Bogdan. Yes, ma'am. What you described just now was 
exactly what I think should be done with the F-35, and that is, 
test it in a realistic operational environment for the CAS 
mission that the Air Force intends the F-35 to do, not the CAS 
mission that the Air Force intends the F-35 to do looking like 
an A-10.
    The problem that I have is, that money that I am going to 
spend doing the testing on the A-10 could be used elsewhere, 
and I know the outcome of that test.
    I will give you an example. You have a decathlete in the 
Olympics, and you have a 100-meter sprinter. If I put the 100-
meter sprinter and the decathlete on the starting line for a 
100-meter sprint, I don't have to run that race to know who is 
going to win it. I don't need to test the A-10 to figure out 
what the F-35 can do in a close air support role. What I would 
prefer to do is test the F-35 in its close air support role as 
the Air Force sees the requirements for that mission for the F-
35.
    Ms. McSally. I hear you, and I am out of time, but I think 
us envisioning that we are never going to have close air 
support where guys are on the run, they are out of ammo, they 
are doing a mirror flash into your eye, they don't have time to 
do standoff CAS because of the complex circumstances. If we 
think that is never going to happen again, I think we are----
    Mr. Turner. You are correct, you are out of time.
    Ms. McSally. Okay. Thank you, Mr. Chairman.
    Mr. Turner. Thank you. Ranking Member Sanchez.
    Ms. Sanchez. Thank you, Mr. Chairman, and first of all 
thank you for holding this, because as you know, you and I have 
been through a lot of growing pains on this F-35 program and I 
know people have mentioned they have been down to the factory. 
Well we have been to the factory, and we have been to the 
factory overseas, and we have been to see them in action, and 
we have been to talk to the pilots, and we have been and we 
have been and we have been. So what we have on our hands is the 
fact this is going to be our production plane for the future, 
and so we have to make sure that it is the best that we have, 
the best that we need. I think the gentlelady from Arizona is 
correct in saying that, you know, that she supports this.
    And I also am glad for her knowledge of fighter planes, and 
I don't know if I am glad for your persistence on keeping the 
A-10, I don't know where I am on that really, but I am glad 
that you are on and you are asking the questions and that you 
keep hitting it because we need to. As well--I am sorry for 
coming late, but I also heard the gentleman from Massachusetts 
have some concerns and some follow-up, so that is the role of 
this subcommittee.
    So thank you to my fellow colleagues for continuing to push 
and continuing to push our program people to make sure that we 
get the best plane that we need. That is what we all want.
    So I just have a couple of questions, gentlemen. The first 
one has to do with something that the chairman brought up 
before I got into the hearing, and this is the whole issue of 
the 136-pound weight limitation. I have been one of the people 
on this committee that has pushed for women in more roles in 
the military, and the gentlelady from Arizona acknowledged that 
she weighs a lot less than I do, and I--my question is, I am 
concerned with the long-term weight limitation, and if it 
disadvantages our female pilots and their eligibility to fly 
the F-35, because our women do tend to be lower in weight. And 
so if the 136-pound weight limitation remains in place for more 
than a few more weeks, how is that going to impact the follow-
on on the cadres of the female pilots that we have in the Air 
Force? And have any of our female pilots already been sort of 
diverted off of going towards the F-35 because of this weight 
limitation?
    General Bogdan. Ma'am, I will answer the technical part of 
that, and let General Harrigian answer the part about 
specifically about Air Force pilots. We have known fixes to the 
problems that currently restrict the pilot population to less 
than 136 pounds. They include a lighter helmet; they include a 
weight switch on the seat; and they include a pad on the back 
of the risers of the parachute that prevent anybody's neck from 
moving forward or aft too much. All those solutions should be 
in place within the next 12 to 18 months. And at that point in 
time, the restriction should be removed, and we will go down to 
103-pound pilot, as well as the size of the pilot is not an 
issue, but we design the seat for the smallest and the lightest 
folks.
    So I think you will find that in the next 18 months or so 
we will make this ejection seat as safe as we possibly can for 
the entire population.
    I will let General Harrigian talk about the pilot 
throughput and female pilots.
    General Harrigian. Thanks, ma'am. So we had one pilot that 
was less than 136 pounds. In fact, it was a male. So he is no 
longer flying the F-35. And due to where he was in his career, 
his leadership decided it is best we move him to another 
airplane so he can continue his career. We have a female that 
is flying the airplane right now. She is still flying the 
airplane right now. But to your point, I think that the longer 
term is, we didn't have anybody in the pipeline right now that 
was impacted. But certainly, if this takes 12 to 18 months, 
there may be a person or persons out there that it could 
impact. And so that is something we are going to have to take a 
look at. As you are well aware, the Secretary and the Chief 
have made it clear that 103 pounds to 245 is our requirement. 
And General Bogdan knows that that is where we need to go. And 
he is working very hard to meet that requirement as quickly as 
he can.
    Ms. Sanchez. Great. Let's hope we fix it in the next few 
weeks. Because I would hate for that to be the reason for our 
women to not be able to move forward----
    General Bogdan. Congresswoman, can I make one other----
    Ms. Sanchez [continuing]. With what is our next real 
generation plane for the next 20 or 30 years. Yes?
    General Bogdan. Can I make one other comment? We have 
partners and FMS customers in the program that are equally 
concerned about this problem, because much of their population 
of pilots, whether they be male or female, are on the lower end 
of the scale. And so I have heard from many partners, many FMS 
customers, as well as the Air Force, Navy, and the Marine Corps 
about how important this is to fix. And it has my full 
attention, ma'am.
    Ms. Sanchez. Great. Thank you, General. My last question is 
about the follow-on development for the F-35. And so while the 
initial engineering, manufacturing, and development stage of 
the F-35 program is supposedly going to be wrapping up in the 
next 2 years, there is another, more potentially and very 
expensive follow-on development that we already have slated for 
the future of this program. And the follow-on effort is mostly 
software upgrades that I can tell as I read through everything. 
It is mostly software upgrades to incorporate additional 
weapons and electronic capability into the aircraft. But even 
though it is just an upgrade effort, the budget is not small. I 
mean, when I look at it, through 2020, I see more than $2.6 
billion in research and development on that effort projected.
    And to be clear, that is on top of the baseline F-35 
development effort that has seen years of delay and cost 
overruns. And I don't want to go over all of that because you 
have heard me pounce on that for a long time now.
    I know that these further upgrades are essential. But I 
think it is important for us to try to get a handle on this 
before it gets out, gets out of whack as we have seen initially 
this project from the very beginning.
    So I have some specific questions about the follow-on 
effort. First, before the program starts, this major effort, it 
obviously needs a clear set of prioritized requirements from 
the U.S. military services and from our foreign partners that 
are involved in this. And so does the F-35 program have a 
prioritized list from the U.S. military services with respect 
to what it really wants in the follow-on development? And if 
not, why not?
    General Bogdan. Yes, ma'am. You have boiled this down to 
the essence of one of the issues with follow-on development 
today. With 14 different customers, we have a large amount of 
requirements that I, today, believe are unaffordable. So as we 
validate the CDD [capability development document], the 
capability document, through the Air Force Requirements 
Oversight Council [AFROC] and then up to the Joint Requirements 
Oversight Council [JROC], and I go to what I call my board of 
directors for the partners, we have asked them to prioritize 
that list of requirements. Because today, I believe that trying 
to achieve all those requirements in the next 8 to 10 years 
will be unaffordable.
    So the process has begun. We believe in December we will 
get our first look at that set of priorities. And then in the 
springtime, when the AFROC and the JROC meet to validate the 
requirements, I believe that is where we will finally join all 
of this together to get what I would consider to be a 
reasonable amount of requirements that are affordable. Because 
I do not disagree with you, ma'am. I have learned a lot of 
lessons in 3 years on what the original EMD [engineering and 
manufacturing development] program looked like. I don't want 
the follow-on program to look anything like that,
    Ms. Sanchez. Because the follow-on, as you know, I mean, we 
have really gone through very painful, on both sides, very 
painful, this has been a painful process. And that is a nice 
word for it. So this development and what everybody wants and 
how it interacts and what it gets I think is incredibly 
important to have that priority list. So I will look forward to 
that in December 2015. And I will look forward to it after your 
capability document validation.
    Second, you know, in other similar upgrade programs, 
Congress has required the DOD to designate them as major 
subprograms or completely separate programs actually. And the 
reason for that has been so that we can actually see the cost 
visibility and we can actually track what is going on. So 
should Congress do the same thing with this follow-on effort 
for the F-35? And if not, why not?
    General Bogdan. The simple answer is no, ma'am. And I will 
tell you why not. So first, my pledge to this committee and to 
the other defense committees and to my partners and to the 
services is we will set up the follow-on modernization program 
with every level of visibility and transparency that you and 
they believe they need for that appropriate oversight. We will 
put the earned value management pieces in there. We will cost 
separate in the contracts so you can see how we are spending 
the money. But to make this a separate program, or even to make 
it a separate program brings a whole host of administrative 
burdens that Mr. Kendall wants to try and avoid to become more 
agile in terms of acquisition.
    I agree with him. I think we can set up a program that 
satisfies the needs of everyone in terms of transparency and 
understanding when the program is on track and not on track 
without designating it as its own program. My promise to the 
committees is if you don't believe when we get our acquisition 
strategy in place, that you don't like that, then we will come 
and talk to you and figure out what you do like. I have asked 
your staffs to help us in what you would like to see in that 
modernization program in terms of reporting. Because we can do 
that. We can do that without setting up a separate program.
    Ms. Sanchez. Well, we will have to talk to our staff and 
see, you know, what we will look at. Maybe a program, a 
separate line might be required if we are really going to track 
this. I just have the scars from the initial program, even 
before the 3 years you have been in. So thank you very much for 
your information. We will try to work with you. Thank you. Mr. 
Chairman, thank you.
    General Harrigian. Mr. Chairman, if I could just add to 
that. As the warfighter, ma'am, understanding the programmatics 
and the importance of ensuring we have got our prioritized 
requirements, which we are working hard as a service with the 
other services to make sure we have got it right. I think it is 
important to remember that the threat is not sitting on their 
hands. And they continue to evolve. So from our perspective, it 
is imperative that we have a stabilized, thoughtful, follow-on 
modernization program that brings new capabilities to this 
airplane so we stay ahead of the curve. And, ma'am, that is all 
I would like to ensure that the committee remembers as we work 
our way through this. Thank you.
    Mr. Turner. Mr. Veasey.
    Mr. Veasey. Thank you, Mr. Chairman. I wanted to ask you 
about the helmet, too. I know that you want to make changes to 
the helmet so it is more compatible for all the pilots in the 
Air Force. I know that that is going to be a really big 
priority for you. But I wanted to ask you about the HMDS 
[Helmet Mounted Display System], because I know that is a big 
part of what makes the F-35 special is the helmet itself, and 
that there has been a lot of technology put into it. And one of 
the things that we have heard in previous hearings that we have 
had on sequester was that being able to implement new 
technology under a sequester system can be tough. So knowing 
that we are working under the sequester, how quickly can 
changes be made to the helmet?
    General Bogdan. The changes and the improvements that we 
are making to the helmet, Congressman, are part of the broader 
SDD [system development and demonstration] program. And because 
our SDD program is incrementally funded, even with a CR 
[continuing resolution] or a sequestration, we would still be 
able to continue those critical development activities like the 
helmet. We would ensure that those kind of things are not 
impacted. There are many other things that would be impacted. 
But in this respect, finishing the development program and 
creating the capability that we promised the warfighter is our 
number one priority. And I think we can do that. There is many 
other impacts, but not that one.
    Mr. Veasey. And one more question about the helmet itself. 
Again, I know just the incredible technology that has gone into 
developing the helmet and, again, being able to make quick 
changes to that helmet so everyone can fly, is it more 
realistic to make changes to, like, the head support panel or 
delaying the deployment of the parachute in order to make it to 
where all the pilots can fly the plane instead of actually 
trying to make very complicated technology changes to the 
helmet?
    General Bogdan. Congressman, the simple answer to your 
question is no. We need a lighter helmet. It is as simple as 
that. All the other things that you talked about are also 
needed to ensure that we have safe escape for the whole pilot 
population. But we do have to take weight out of the helmet. 
The one point I would like to make about taking weight out of 
the helmet is we are not changing any of the electronics. We 
are not changing any of the sensors in the helmet. To remove 
the 6 ounces that we need from the helmet to get it under 
weight, what we are doing is we are taking the material that is 
used for the strapping and for the cushioning of the helmet and 
changing that material to something lighter and stronger.
    And the second thing that we are doing is today's helmet 
has a dual visor on it, a daytime visor and a nighttime visor. 
We are going to remove the double visor and put a simply 
daytime visor on it such that if the pilot needs to change to 
the nighttime visor, just like our legacy airplanes, he or she 
will reach into their pocket and they will take the daytime 
visor off and put the nighttime visor on. Those two are fairly 
simple things to do. Now, I never want to say anything is easy 
in the F-35 program because nothing is ever easy. But in this 
instance here, I think we got it just about right. Because we 
are not going to mess with any of the high-technology things 
that make that helmet what it is.
    Mr. Veasey. Thank you. Mr. Chairman, thank you very much.
    Mr. Turner. Ms. Graham.
    Ms. Graham. Thank you, Mr. Chairman. Thank you both for 
your service. Thank you for being here. As a north Floridian, 
both Eglin and Tyndall, incredibly important. And your service 
and the service of so many men and women who live in north 
Florida is greatly appreciated. So thank you. When we had a 
CODEL [congressional delegation]--and, Mr. Chairman, when did 
we go on that CODEL? When was it? In March?
    Mr. Turner. In March.
    Ms. Graham. And it was so informative and really impressed 
with the F-35. There was one area that, though, there was 
consistent concern both with the pilots and with the 
maintenance, those that maintain the airplanes. And I am not 
going to use an acronym because I have learned to not use 
acronyms. But it has got a snappy one. But it is Autonomic 
Logistics Information System, aka ALIS. So there were real 
concerns about false, you know, errors reporting. And I am just 
curious, have we resolved some of the software issues that ALIS 
was facing? Thank you so much.
    General Bogdan. I will give you the technical answer. And I 
will let General Harrigian give you the warfighter's 
perspective. So since your visit down there, we took a look at 
that health reporting code problem. And we have done a number 
of things since then that have improved the situation. The 
first thing we did was we put a new increment of software and 
capability into the ALIS system. We call it ALIS 2.01. That 
fixed some of the problem.
    Another part of the problem was that we did not have a 
complete list of those codes that were false, so to speak, at 
the time. And we were worried that if we made the list too big, 
that a code that really wasn't false would get overlooked. We 
have a lot more time on the airplane now and a lot more 
maturity on the airplane. So we were able to upgrade that list. 
The bottom line here is the 80 percent number that you heard 
down at Eglin, which was accurate, for the entire fleet today 
is about half that now.
    That is not the best part of the story. Because that is the 
whole fleet. The best part of the story is that Lot 6 and Lot 7 
airplanes that we are fielding today, because they have many of 
the R&M [repair and maintenance] improvements that we made over 
the last 2 years, they are only seeing a very small handful, 
like 1's and 2's, when they land each and every day. So that 40 
percent now that used to be 80 percent includes all the older 
airplanes that until they are upgraded, that they are still 
going to have that issue. But the newer airplanes, much better. 
General Harrigian has some experience with the new Lot 7 
airplanes at Hill Air Force Base that they have been using. And 
he might be able to tell you a little more.
    General Harrigian. So those airplanes, ma'am, we have three 
of them up there. And they have not lost a sortie since they 
delivered them. So as we have delivered these newer airplanes, 
they are performing really, really well. And Eglin still has 
some of the older ones, so they struggle with some of the older 
systems that the Program Office has continued to update over 
time, even since last March, as General Bogdan points out, so 
that it continues to improve.
    Now, having said that, there is still going to be 
challenges as we understand ALIS and put our maintainers in the 
field working through that system with the Program Office. And 
I will tell you one of the things that we did is we had our 
senior logistic leaders from all the F-35 bases and folks from 
the JPO coming together to talk about what are the big issues. 
This, of course, was one of them. And so we provided a list of 
some specific things, this fault reporting code issue being one 
of them, that we have worked very closely with the Program 
Office to get the feedback from our airmen in the field, and 
get those to the Program Office so they can work through, 
prioritize those, and get after the most important issues to 
ensure we are fixing the right things on the airplane.
    Ms. Graham. Well, that is really great to hear, because I 
could hear the frustration, that they were faced with all these 
false negatives that they were having to deal with. You 
mentioned other airplanes. Are they using the same software 
system? They are using ALIS?
    General Bogdan. Yes. All the airplanes in the fleet are 
using ALIS. It is just the newer airplanes have many of the 
fixes in terms of software and hardware that we learned from 
the older airplanes. So if you went to Eglin today, what you 
would find on their flight line is airplanes that are in what 
we call the Block 1 configuration, believe it or not, and the 
2A configuration. When those airplanes get upgraded to the 2B 
configuration or the Block 3 configuration like we have at Hill 
or at Nellis, you are going to find a lot of those problems 
have gone away. We just haven't had time to backfit and modify 
those older airplanes.
    Ms. Graham. Great. And my time has expired. But thank you 
very much. A good, positive update. Thank you.
    Mr. Turner. Ms. Speier.
    Ms. Speier. Mr. Chairman, thank you for the accommodation. 
And thank you, Generals, for your presentation and for your 
service. I wanted to be clear, did you say in your opening 
testimony that you have accepted, you have received 79 F-35s to 
date?
    General Harrigian. Yes, ma'am. In the Air Force, we have.
    Ms. Speier. So with the 79 that you have received, do they 
all have this ejection seat issue?
    General Harrigian. Yes, ma'am. Every airplane.
    Ms. Speier. Now, I understand that you tested the ejection 
seat on lighter--on a mannequin that was 135 pounds. I have 
also understood that more recently, you have tested it on a 
245-pound mannequin. But it has not been tested on a mannequin 
between the weight of 135 and 245, is that correct?
    General Bogdan. In the development test program, we do have 
those test points planned out. But you are correct, as of 
today, we have done the high end and the low end.
    Ms. Speier. So my concern is this: If we know there is a 
problem on the low end, we haven't tested it for those who are 
likely to be most pilots between the weight of 135 and 245, and 
we have them in these planes now testing them, are we putting 
any of them at risk?
    General Bogdan. The answer to that is no, ma'am. Because we 
have done the risk analysis on the test points that we have had 
on the ejection seat. And what we have found is the only area 
where we have a problem today is with the lightweight pilot 
below 136 pounds. Because when we have tested throughout the 
envelope, you can't test every point for every weight, but the 
areas that we have tested indicate that in the heart of the 
envelope for the heart of the pilot population, there is not 
any increased risk of injury at all. And I can show you that 
analysis, ma'am.
    Ms. Speier. All right. Thank you.
    General Harrigian. Ma'am, from the service perspective, we 
have a Life Cycle Management Center that is part of our 
airworthiness organization. And they have--and, ma'am, to be 
clear, I have talked with the guys who have been working this 
for 30 years, because clearly, this is an important issue for 
us. And we share and talk very closely with the Program Office 
with this. And exactly what General Bogdan said is how it was 
communicated to us. In fact, they have shown us the chart, how 
it lays out, and what the risk levels are. And so, as General 
Bogdan said, there is certain risk there. We have accepted it, 
accept that the low end beneath 136 pounds.
    Ms. Speier. Well, there has been some report that there has 
been a memo that you accepted, General Bogdan, that, accepted a 
1-in-4 risk of death, with--a problem with the ejection system 
as being a risk that is worth taking I guess. Is that correct?
    General Bogdan. Ma'am, that is incorrect. The data that you 
have came from a reporter who got a copy of an official use 
only, internal DOD document that my team put together to assess 
the risks of a lightweight pilot and a pilot between 136 and 
165 pounds. That document should have never been publicly 
released. I have an investigation ongoing to figure out how 
that reporter got it. But the worst part of this is, the 
reporter did not know how to read the report, ma'am. So let me 
give you the actual facts.
    Today, a pilot that weighs less than 136 pounds, if he 
steps to the airplane, he or she has a 1-in-50,000 chance of 
hurting their neck from an ejection. A pilot between 136 pounds 
and 165 pounds has a 1-in-200,000 probability of having neck 
injury from ejection. The individual who reported on this is 
not an expert in system safety.
    Ms. Speier. Okay. My time is running out. As I understand 
it, the test was done under ideal circumstances. Is there any 
reason to feel that the results would be any different in 
circumstances where it was going not at ideal speeds, but--and 
not going straight but going up?
    Mr. Turner. Your time has expired. Generals, I want to 
thank you for being here. You have continued to provide the 
information as required by this committee. And we will continue 
to hold this program accountable and provide oversight, not 
just because there are issues or problems that have arisen, 
which there are, but because this program is so incredibly 
important. It needs to be safe for our pilots. It needs to be 
safe for our country. And it needs to be able to perform at the 
level it has been asked to perform, because the gap that this 
plane is going to fill is incredibly important. With that, I 
thank you both for your service. And I know that you both know 
that we will continue to work both through the committee 
hearing structure and throughout the calendar year to both 
inquire and to work with you to ensure this plane can deliver. 
Thank you.
    [Whereupon, at 4:55 p.m., the subcommittee was adjourned.]


      
=======================================================================


                            A P P E N D I X

                            October 21, 2015
     
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                            October 21, 2015

=======================================================================

 
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]      

 
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                            October 21, 2015

=======================================================================

      

                   QUESTIONS SUBMITTED BY MR. TURNER

    Mr. Turner. The committee is concerned that the Follow-on 
Development program requirements are unbridled and will evolve into the 
magnitude of the current System Development and Demonstration. What are 
you doing to keep Follow-on Development within reason?
    General Bogdan. The Program Office agrees with the concern of 
unaffordable requirements in Follow-on Modernization expressed by 
Congressman Turner. In the F-35 case, 11 major stakeholders, the US 
Services eight (8) Partner nations, are ultimately responsible for 
future F-35 requirements. All of the stakeholders are acutely aware 
that there are affordable, practical limits to the F-35 modernization 
effort and are cooperating fully to constrain Block 4 to affordable and 
technically realistic increments. Affordability assessments from the US 
Services and Partner's Ministry of Defenses serve as significant 
elements of that effort.
    The process used to define the Follow-on Modernization program 
requirements includes a significant screening/gating process that 
evaluates each of the proposed capabilities based on warfighter 
priority, technical maturity, risk and readiness for integration, 
schedule and cost. Once the US Services and Partners define the 
affordable set of Block 4 capabilities, these capabilities will be 
``frozen'' and only through a well-defined governance process spelled 
out in the well-established F-35 US Service and Partner Memorandum of 
Understanding, can these requirements change, grow, or be removed.
    Mr. Turner. The Fiscal Year 2016 National Defense Authorization Act 
included a legislative provision that limits F-35 procurement until the 
Secretary of the Air Force certifies that F-35A's delivered during 
FY2018 will have full Block 3F capability. What is the impact of this 
provision and what is your plan to address it?
    General Bogdan. The Joint Program Office (JPO) has initiated action 
to ensure full capability is received prior to FY18. The low rate 
initial production (LRIP) 9 contract, currently being negotiated with 
the contractor, contains requirements for full 3F capability in 
delivered jets beginning in August 2017. The subsequent LRIP 10 
contract includes this same requirement--full 3F capability--for jets 
to be delivered in FY18. The JPO is working with the Air Force to 
obtain Secretary of the Air Force certification should this provision 
become law.
    Mr. Turner. We are now operating under a continuing resolution. 
What are the impacts of this and what would the impacts be if we have a 
yearlong CR?
    General Bogdan. While the F-35 program is able to function under a 
short term continuing resolution (CR) without driving significant 
impacts to the program, a long-term CR would be detrimental to the F-35 
production ramp-up and drive increased costs for the United States and 
our International Partners. It would restrict the government's ability 
to award the full quantity of U.S. F-35 aircraft to be procured in the 
Low Rate Initial Production (LRIP) 10 contract until the 2016 defense 
budget is approved. Should the program operate at fiscal year 2015 
budget levels, for a long period of time the Department would be unable 
to provide 16 F-35As for the U.S. Air Force and three (3) F-35Bs for 
the U.S. Marine Corps. If the Department is unable to procure these 19 
aircraft on the LRIP 10 contract, there would potentially be increased 
costs for not only the 19 US aircraft but also for the other aircraft 
in LRIP 10 as the JPO would have to modify the current LRIP 10 contract 
to remove those 19 aircraft, resulting in cost increases for all the 
aircraft. A long-term CR would also negatively impact the program's 
ability to move forward with early planning of F-35 Follow-on 
Modernization, which is the next phase of the program once System 
Development and Demonstration (SDD) ends in October 2017. Up to a 
year's delay of Follow-on Modernization Program could result from an 
extended CR.
    Mr. Turner. Please share with us your current thinking on a 
Production Block Buy. What is your strategy? What are the major 
decision points? Do you have ``buy in'' from the International 
partners/services? What savings are currently projected? What 
authorization are you expecting from us?
    General Bogdan. The Joint Program Office (JPO) is working to obtain 
approval to enter into a future Block Buy Contract (BBC) for more than 
400 aircraft. BBC savings are obtained primarily through Economic 
Ordering Quantity (EOQ) funding that allows the contractors to purchase 
materials in quantities greater than those required for a single year's 
production. EOQ is similar to Advance Procurement funding in that it is 
funding required one year early; it is not an additional investment.
    The JPO received Rough Order of Magnitude (ROM) proposals from 
Lockheed Martin (LM) and Pratt & Whitney (P&W) for BBC. JPO's 
assessment of the ROMs reflected that if the Partners/Services provide 
4% Economic Order Quantity (EOQ) funding (4% of the total contract cost 
for all the aircraft) and provide $300M in Cost Reduction Initiatives 
(CRI) funding; a cost savings in excess of $2B will result. RAND 
Corporation (Project Air Force) has been put on contract to conduct an 
independent assessment of cost with final results being provided March 
2016. RAND's interim assessment of LM's ROM estimate was that LM's 
savings estimate was reasonable but conservative. RAND believed that it 
is possible to achieve overall greater savings than LM estimated 
through a more thorough analysis of the entire supply chain. This is 
understandable because LM had limited time to complete the ROM and 
thus, LM could not investigate the lower tiers of the supply chain.
    The Congress will be asked to authorize both a Block Buy 
Contracting strategy and EOQ purchase the year prior to the first year 
of the Block Buy. Using aircraft quantities from the current program of 
record, the draft proposed language reads:
          The Secretary of Defense may award block buy contracts to 
        cover three production lots of up to 60 F-35B Lightning II 
        Joint Strike Fighter aircraft and F135 engines for the Marine 
        Corps, and up to 30 F-35C Lightning II Joint Strike Fighter 
        aircraft and F135 engines for the Navy; up to 180 F-35A 
        Lightning II Joint Strike Fighter aircraft and F135 engines for 
        the Air Force; and up to 222 F-35A Lightning II Joint Strike 
        Fighter aircraft and F135 engines, and up to 22 F-35B Lightning 
        II Joint Strike Fighter aircraft and F135 engines for 
        international customers. Such contracts may include the 
        procurement of materiel and equipment in economic order 
        quantities.
    Mr. Turner. The F-35 program plans to ramp up aircraft production 
over the next 4 years. What is the readiness level of the prime 
contractor and the engine contractor to meet production requirements, 
and how are you assuring their readiness to do so?
    General Bogdan. While there is moderate risk in delivering 
approximately 120 aircraft in Low-Rate Initial Production (LRIP) 11 
(four years from now), the technical and production risks have been 
identified, are manageable, and considered acceptable to proceed in 
production. The F-35 Program's ability to transition to higher 
production rates continues to be demonstrated, having delivered over 
142 aircraft. Potential risks to get to higher production rates are 
continually monitored and managed through multiple forums such as 
formal Production Readiness Reviews (PRRs), informal PRRs, and through 
standard supply chain management (SCM) contractor oversight business 
practices.
    Formal PRRs are contractually required and conducted annually. They 
are focused on the top high risk suppliers and prime contractors. Sub-
tier supplier reviews are led by the prime contractors with the 
Government acting as an active participant. Prime contractor PRRs are 
led by the Government. Informal PRRs are conducted by the prime 
contractors on the next level of risk suppliers and follow a similar 
format as the formal PRR but may be tailored to the supplier under 
review. The rest of the supply chain is managed through standard SCM 
oversight. The JPO can provide the PRR results for the past few years 
to the Defense Committees if requested.
    Mr. Turner. What is the status of completing the long-term fix for 
the F-35's engine problem discovered during the engine fire and failure 
in June 2014? When will all aircraft be modified with the long-term fix 
for this problem?
    General Bogdan. The F-35 Joint Program Office (JPO) was able to 
determine root cause for the engine failure, and developed an interim 
solution: a ``pre-trenched'' rub material that has been implemented in 
the field and on the production line. Retrofit of the entire fleet is 
over 50 percent complete and will be completed in spring of 2016. 
Production cut-in began in April 2015. Pratt & Whitney has agreed to 
cover the costs for the repairs to engines in the field and the cut-in 
of the solution to the production line, while the program office will 
pay for the design activity as per the development contract. The 
corrective action team studied several re-design options including the 
interim pre-trench solution and determined that the pre-trench design 
was the best performing and most affordable solution for the long term.
    Mr. Turner. Our visit to Eglin AFB in March, both pilots and 
maintenance personnel reported problems with the Autonomic Logistics 
Information System or ``ALIS.'' The pilots were concerned about the 
time it takes to get information for debrief and the maintenance 
personnel were concerned about the false reporting codes. Please 
provide an update on how the F-35 Program Office is addressing those 
issues.
    General Bogdan. The F-35 air system is experiencing some ``false'' 
Health Reporting Codes (HRC) generated by the aircraft, then downloaded 
and filtered in ALIS. This is manifested in the early software versions 
(Block 1B and Block 2A) of the F-35 software, which are being used at 
Eglin Air Force Base. Many of the aircraft-generated HRCs do not 
require maintenance action (false codes) but do generate work orders 
that cause unnecessary administrative burden for maintainers and pilots 
to close out the action. The release of Block 2B software has resulted 
in an improvement cutting these false codes over earlier Block 1B/2A 
versions in half.
    The ``80% false positive'' figure is related to the work-orders 
that ALIS automatically generates after each flight. As an example, a 
given aircraft may generate 20 HRCs after a flight. Of those 20, any 
number of them (50%, or 10, in this example) may be automatically 
flagged as not valid and removed by systems within ALIS--this function 
is called the Nuisance Filter List (NFL). The remaining 10 HRCs would 
result in work-orders requiring maintenance personnel action. This is 
where the reports of ``80% false positives'' come into play--eight of 
these work-orders are potentially false positives and require a 
maintainer to take administrative steps to close. The final two would 
be ``legitimate'' work-orders that warrant maintenance actions.
    Both the aircraft (false HRCs) and ALIS (proper filtering) 
contribute to this issue. Valid HRC software fixes are being addressed 
in the aircraft software via Software Product Anomaly Reports. With 
these software updates, ``false'' work orders for the maintenance 
personnel will continue to be reduced with each aircraft software 
release. The Joint Program Office (JPO) is also updating the ALIS 
software to improve correlation of HRCs and consolidation of work 
orders. The ultimate goal with the improvements of both the aircraft 
off-board prognostics health monitoring system and ALIS software is 
negligible false positives by the end of 3rd Quarter of 2017.
    Mr. Turner. Recently, Martin-Baker experienced injury risk 
exceedances on two ejection seat sled tests related to neck loadings. 
Can you please describe the failures, what they mean and the Air Force 
response to these recent failures?
    General Harrigian. Both of these exceedances were during slow speed 
(160 knots) ejections, one with a 103 pound manikin, and one with a 
136 pound manikin. In both cases, the exceedances were caused by over 
rotation of the seat, causing an improper body position relative to the 
risers at opening shock, resulting in a whiplash-like motion force that 
exceeded injury risk criteria. The risk is ``High'' for the lightest 
weight pilots and ``Serious'' for pilots up to 165 pounds. For the 
heavier category, that risk has been deemed acceptable based on the 
overall hazard risk index (consequence coupled with probability). For 
the lighter weight category, we have restricted pilots weighing less 
than 136 pounds from flying the F-35A and will continue to do so until 
the ejection system is fixed to an acceptable risk level. We are 
committed to providing an ejection system that meets requirements for 
the entire pilot demographic.
    Mr. Turner. The Marine Corps recently declared initial operational 
capability (IOC) in July 2015 with their version of the F-35. The Air 
Force is the next service in line to declare IOC in the Fall of 2016. 
Can you please give an overview on how the Air Force is progressing 
towards IOC and what, if any concerns you have in meeting the currently 
IOC timeline?
    General Harrigian. We are making steady progress toward IOC next 
year, and I am confident we will make IOC between 1 August and 31 
December. There are three concerns we have for achieving IOC by 1 
August 2016: 1) completing required aircraft modifications, especially 
the fuel overpressure modification, prior to 1 August, 2) delivering 
ALIS 2.0.2 software version to fully train operations and maintenance 
personnel on its deployed use, and 3) delivering one of the mission 
data files required for deployed operations (according to the current 
schedule) in time for a 1 August IOC declaration. We are diligently 
working with the Joint Program Office, Lockheed-Martin and Air Combat 
Command to mitigate these delays and achieve IOC on time.
    Mr. Turner. There has been spirited dialog in the press between the 
Air Force Chief of Staff, General Mark Welsh III, and the Director of 
Operational Test and Evaluation (DOT&E), Dr. Michael Gilmore with 
respect to F-35 Comparative Testing during Initial Operational Test and 
Evaluation (IOT&E). Can you please describe the Air Force position on 
Comparative Testing and how the planning is going for the F-35 
Comparative Tests?
    General Harrigian. We fully support comparative testing during F-35 
Initial Operational Test and Evaluation (IOT&E). As The Department of 
Defense's independent test organization, the Director of Operational 
Test and Evaluation, his staff and Joint Operational Test Team at 
Edwards are working to include comparative testing in the IOT&E plan 
without undue impact on schedule and cost. We fully support that 
effort.
    Mr. Turner. A January 2015 flight test demonstrated that the F-35 
was not as maneuverable as an F-16, the very aircraft it's supposed to 
replace, in a dogfight. Can you comment on the conclusions of that test 
and the implications for F-35s in combat?
    General Harrigian. Both operational and developmental testing 
continues for the F-35. The F-35 is designed to be comparable to 
current tactical fighters in terms of maneuverability, but the design 
is optimized for stealth and sensor superiority. News reports on the F-
35's performance against an F-16 was an early look at the F-35's flight 
control authority software logic, and not an assessment of its ability 
in a dogfight situation. The Operational Test Wing has just completed 
the first two phases of the within visual range (WVR) Tactics 
Investigation (TI) consisting of Aircraft Handling Characteristics and 
Basic Fighter Maneuver exercises. Comments from the operational testers 
state that the ``Initial handling results are generally positive at 
this stage of tactics development and are comparable to current 
tactical fighters.'' Operational units are just starting to train their 
pilots on these first two stages of WVR tactics.
    The F-35 has been optimized for the current trends in air warfare, 
where the enemy is engaged and defeated from long distances, but it 
will still be able to maneuver aggressively when required to defeat and 
kill threats.
    Mr. Turner. At our hearing in mid-April, General Bogdan reported 
improvement in aircraft availability rates to around 55 percent, and 
improvement in the aircraft's mission capability rate to about 65-70 
percent. What are the goals for aircraft availability and mission 
capability rates for the operational use of the F-35, and do you agree 
with this assessment and do you see aircraft availability and mission 
capability rates improving to meet your requirements?
    General Harrigian. The USAF minimum (threshold) targets for 
aircraft availability and mission capability rates to support 
operational squadrons are established via a Bilateral Annex between the 
USAF and the F-35 Joint Program Office as part of the F-35 Performance 
Based Arrangement. Threshold rates to support USAF F-35 Initial 
Operating Capability (IOC) in 2016 are 60 percent for both aircraft 
availability and mission capability. Following IOC, threshold and 
objective aircraft availability and mission capable rates are specified 
in the Performance Based Arrangement for 2017 through 2019 for 
training, non-deployed and deployed aircraft. The rates are required to 
increase for all three categories across this time period. By 2019, 
threshold aircraft availability requirements for training/non-deployed/
deployed aircraft will be: 65%/70%/75%. Objective aircraft availability 
requirements will be: 85%/90%/95%. In 2019, threshold mission 
capability requirements for training/non-deployed/deployed aircraft 
will be: 80%/80%/85%. Objective mission capability requirements will 
be: 90%/90%/95%.
    During FY 15, the USAF fleet has achieved an aircraft availability 
rate of 55 percent and a mission capability rate of 66 percent. The 
USAF and Joint Program Office continue to drive readiness improvements 
into the fleet. Mission capability rates already exceed the 60 percent 
threshold and we are confident that air system performance trends and 
targeted efforts to improve air system availability will meet 
requirements to support IOC in 2016. The ability to meet increasing 
performance requirements following IOC is difficult to predict as the 
fleet is still maturing to a stable configuration and full rate 
production.
                                 ______
                                 
                    QUESTIONS SUBMITTED BY MR. JONES
    Mr. Jones. What was the original budget projection in 2001 for the 
F-35 program?
    How much have we invested thus far in the F-35 program?
    How much is this over the original budget projection?
    General Bogdan. The original cost estimate for F-35 was $226,458.3M 
(Selected Acquisition Report (SAR) from 2001). This included the cost 
to develop and procure 2,866 F-35 aircraft through the life of the 
program.
    From FY01 thru FY15 appropriations, the amount invested is 
$95,779.9M (RDT&E, Procurement, & MILCON).
    The current estimate reported in SAR 2014 is $391,134.7M or a 72% 
increase over the 2001 original cost estimate of $226,458.2M. However, 
the program was re-baselined after the Nunn- McCurdy breach in 2012. 
Since the re-baseline, the program has maintained control of costs. In 
fact, projected costs have decreased by approximately 1.1% from the 
2012 Acquisition Program Baseline (re-baseline) to the latest 2014 SAR 
(from $395,711.8M to $391,134.7M).
    Mr. Jones. What was the original budget projection in 2001 for the 
F-35 program?
    How much have we invested thus far in the F-35 program?
    How much is this over the original budget projection?
    General Harrigian. This question is in the oversight and 
jurisdiction of the Joint Program Office and I defer to their answer of 
the same question.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MS. SPEIER
    Ms. Speier. Has the F-35 program completed a full end-to-end 
cybersecurity testing of the F-35's operational system, and if not, 
when will it do so?
    Has the F-35 program completed a full end-to-end cybersecurity 
testing of the F-35's operational system, and if not, when will it do 
so?
    General Bogdan. Cyber testing is a robustly-resourced and recurring 
activity that is foundational to the program's development. We 
constantly work with various agencies and experts to ensure 
survivability in a cyber-threat environment. The JPO has supported more 
than 2,000 cyber tests across all spectrums of the program including 
air vehicle, training systems, mission software, reprogramming 
laboratories and logistical support systems and has conducted close to 
300 related tests this year alone.
    The program conducts on-going independent Certification and 
Accreditation (C&A) activities to maintain current Authorities to 
Operate (ATOs) and Authorities to Connect (ATCs) on all DOD networks. 
These C&A activities include independent vulnerability and adversarial 
testing on production representative equipment. The F-35 program is in 
compliance with DOD Directive 8500.1 ``Information Assurance'' and 
views cyber testing as a core responsibility fundamental to mission 
success.
    Operational Test (OT) continues to provide ongoing and continuous 
testing of each major increment of release of ALIS and Air Vehicle 
capability. OT has already completed separate and distinct Cooperative 
Vulnerability Penetration Assessments (CVPA) of the ALIS 1.0.3 Squadron 
Kit (at Edwards AFB) and ALIS 2.0.0.2 Squadron Kit (aboard the USS 
Wasp). This testing was followed by CVPAs of the ALIS 2.0.1 Squadron 
Kit (at Edwards AFB) and US Operational Central Point of Entry (CPE) 
(at Eglin AFB). Further testing will be accomplished in the spring of 
2016 with end to end CVPA and Adversarial Assessments (AA) of the ALIS 
2.0.1 system and integration of cooperative testing vignettes of the 
Block 2B Air Vehicle. Operational testing will continue with planned 
end to end testing of the ALIS system at release 2.0.2 and 3.0 as well 
as with the Block 3i and 3F Air Vehicle.
    Ms. Speier. Does the Martin-Baker Water Activated Release System 
(MWARS) currently pose a ``serious risk'' to pilots' lives, and if so 
when will this system be retrofitted to reduce that risk?
    General Bogdan. Aircraft deliveries with ejection seats having 
MWARS installed started on LRIP 5 (2014). For aircraft delivered prior 
to LRIP 5, the JPO is currently retrofitting those aircraft with MWARS. 
The projected completion date is March 2016. A System Safety Risk 
Assessment was performed for those aircraft flying without MWARS, 
identifying a Medium level risk--one order of magnitude lower than a 
Serious risk. This risk was accepted by the US Services after 
coordination with Naval Air Systems Command (NAVAIR) and Air Force Life 
Cycle Management Center (AFLCMC).
    Ms. Speier. Have any tests of the F-35 ejection seat been done in 
``off-nominal'' conditions, simulating the impact on a pilot when the 
airplane is not flying straight at a relatively optimal speed? If so, 
what is the risk to pilots from performance in ``off-nominal 
conditions''? If not, when will these tests be done?
    General Bogdan. Ejection seat tests have been conducted at ``off 
nominal'' speeds using both test sleds and an aircraft used by the 
Escape System community to test the ejection seat airborne. The F-35 
specification, and corresponding development and qualification program, 
do not have any requirements for escape system sled testing to be 
performed in ``off nominal'' orientations. There are requirements to 
perform testing at ``off nominal'' speeds. The most common ejection 
speed is 170 kts. Less than 10% of ejections occur above 400 kts. 
However the F-35 program has conducted more than 45 ejection tests 
above 400 kts to ensure the robustness of the system design.
    Ms. Speier. When will ejector seat testing be completed using 
dummies weighing between 136 and 244 pounds?
    General Bogdan. 32 tests have been performed by the F-35 with 
manikins in that range. Six (6) additional tests will be performed as 
part of the qualification efforts of the ejection seat redesign over 
the next 24 months with ejection seat qualification testing expected to 
complete in 3rd Quarter CY 2016.
    Ms. Speier. The JPO has stated that the ejector seat and helmet 
will be fixed to eliminate risk to pilots by summer 2017. What will the 
consequences be if this risk is not eliminated on schedule?
    General Bogdan. If the risk is not eliminated on schedule, the 
Services will have to make a decision on maintaining the weight 
restriction limiting the F-35 pilot population to only pilots that 
weigh more than 136lbs. If the restriction is maintained, the safety 
risk will not increase over the risk currently assessed and accepted.
    Ms. Speier. Is there an indemnity clause in the F-35 contracts that 
would render the U.S. government responsible for any deaths or injuries 
caused by these systems?
    General Bogdan. No, there is no indemnity clause in the F-35 
contracts.
    Ms. Speier. Regarding the acceptance of risk for the F-35 ejection 
seat, are there other comparable risks to the lives of U.S. service 
members that General Bogdan has signed off on and accepted?
    General Bogdan. Risk for in-service aircraft is accepted by the 
services, not the F-35 programs. Other escape system risks associated 
with the F-35 program include:
    -  A Serious level risk of fatal pilot injury with a probability of 
0.7 per ten million flight hours for ejections outside of the Terrain 
Clearance Envelope.
    -  A Medium level risk of fatal pilot injury with a probability of 
9 per ten million flight hours with ejections above 550 knots.
    -  A Medium level risk of severe pilot injury with a probability of 
4 per ten million flight hours during ejection due to a design issue on 
the ejection seat shoulder harness.
    -  A Medium level risk of severe pilot injury for ejections above 
450 knots when wearing a Gen III helmet (please note that this risk is 
not attributable to the design of the ejection seat. Injury could occur 
as a result of visor loss (9 per ten million flight hours) or head and 
neck loas (7 per million flight hours).
    Each of these risks were recommended for Service acceptance by the 
Joint Program Office (JPO) and each Service followed its risk 
acceptance processes to evaluate (and accept) the risk.
    Ms. Speier. Have the F-35 pilots currently flying the aircraft been 
notified of this ``serious risk'' of death, and what is the process by 
which they have acknowledged and accepted this risk?
    General Bogdan. This question is better answered by the US. Air 
Force and will be addressed in the same QFR sent to Maj Gen Harrigian.
    Ms. Speier. What responsibility does Martin-Baker have for the 
ejection seat problem?
    General Bogdan. Martin-Baker is responsible for providing the 
ejection seat portion of the Escape System that provides a safe escape 
from the aircraft as required by the F-35 Specification. Lockheed 
Martin is responsible for the overall escape systems. The current 
escape system issues are caused by the combination of both seat 
performance and the Helmet Mounted Display (HMD) configuration. It is 
Martin-Baker's responsibility to resolve the issues that are caused by 
the ejection seat--namely, the sequencer and the parachute Head Support 
Panel are solutions designed by and incorporated by Martin-Baker to 
address the seat performance. It is Lockheed Martin's responsibility to 
provide an HMD configuration that addresses escape system issues caused 
by the HMD. Industry is paying for the design and test of these fixes.
    Ms. Speier. Did considerations about U.K. participation in the F-35 
program motivate the decision to award the contract to Martin-Baker?
    General Bogdan. No. The Joint Program Office (JPO) does not have a 
contract with Martin-Baker for the ejections seats. Martin-Baker is a 
subcontractor to British Aerospace (BAE), who is in turn a 
subcontractor to Lockheed Martin. The selection criteria for awarding 
the ejection seat to Martin-Baker were determined by Lockheed Martin 
and BAE during the source selection phase at the start of the program.
    Ms. Speier. AT&L is proposing a block buy of over 400 F-35 aircraft 
in FY19 and FY20. Do you consider this a block buy, and if it were 
enacted, what incentive would the contractor have to fix problems like 
the ejection seat and mission fusion issues in aircraft that have 
already been purchased?
    General Bogdan. The Joint Program Office (JPO), in coordination 
with AT&L, is working to enter into a future Block Buy Contracting 
effort. The JPO intends to award a performance based specification for 
aircraft procured under a Block Buy Contract. Correction of 
deficiencies associated with any component will be required by industry 
in order for the contractor to meet contract specifications. The JPO 
will not accept items that are deficient to contract specifications, 
and require industry to correct the deficiencies either before after 
acceptance of the aircraft.
    Ms. Speier. Has the F-35 program completed a full end-to-end 
cybersecurity testing of the F-35's operational system, and if not, 
when will it do so?
    General Harrigian. This question is in the oversight and 
jurisdiction of the Joint Program Office and I defer to their answer of 
the same question.
    Ms. Speier. Does the Martin-Baker Water Activated Release System 
(MWARS) currently pose a ``serious risk'' to pilots' lives, and if so 
when will this system be retrofitted to reduce that risk?
    General Harrigian. This question is in the oversight and 
jurisdiction of the Joint Program Office and I defer to their answer of 
the same question.
    Ms. Speier. Have any tests of the F-35 ejection seat been done in 
``off-nominal'' conditions, simulating the impact on a pilot when the 
airplane is not flying straight at a relatively optimal speed? If so, 
what is the risk to pilots from performance in ``off-nominal 
conditions''? If not, when will these tests be done?
    General Harrigian. This question is in the oversight and 
jurisdiction of the Joint Program Office and I defer to their answer of 
the same question.
    Ms. Speier. When will ejector seat testing be completed using 
dummies weighing between 136 and 244 pounds?
    General Harrigian. This question is in the oversight and 
jurisdiction of the Joint Program Office and I defer to their answer of 
the same question.
    Ms. Speier. The JPO has stated that the ejector seat and helmet 
will be fixed to eliminate risk to pilots by Summer 2017. What will the 
consequences be if this risk is not eliminated on schedule?
    General Harrigian. Based on data analysis, the Air Force made the 
decision to restrict F-35 pilots weighing below 136 pounds (high risk 
for serious or fatal injury). This policy only affected one pilot. We 
will continue this risk mitigation until the ejection system is fixed 
and the risk level is acceptable. Martin Baker is currently working on 
permanent and potential interim solutions. We have set the requirement 
for the ejection system to accommodate the entire pilot demographic 
from 103 to 245 pounds. Ultimately, the Air Force wants a seat that 
meets that requirement.
    While cost and schedule could be factors in finding a solution, the 
performance of the ejection system is a priority to ensure the 
survivability of our pilots.
    Ms. Speier. Is there an indemnity clause in the F-35 contracts that 
would render the U.S. government responsible for any deaths or injuries 
caused by these systems?
    General Harrigian. This question is in the oversight and 
jurisdiction of the Joint Program Office and I defer to their answer of 
the same question.
    Ms. Speier. Regarding the acceptance of risk for the F-35 ejection 
seat, are there other comparable risks to the lives of U.S. 
servicemembers that General Bogdan has signed off on and accepted?
    General Harrigian. This question is in the oversight and 
jurisdiction of the Joint Program Office and I defer to their answer of 
the same question.
    Ms. Speier. Have the F-35 pilots currently flying the aircraft been 
notified of this ``serious risk'' of death, and what is the process by 
which they have acknowledged and accepted this risk?
    General Harrigian. The commanders of all Air Force Wings currently 
flying the F-35A have notified their pilots of the serious risk. 
Additionally, to ensure understanding of the risk information, a Flight 
Crew Information File (FCIF) was disseminated to all F-35 flying units. 
Pilots are required to acknowledge any FCIF prior to flying. This FCIF 
contained the information from the Air Force Airworthiness Authority 
System Safety Risk Assessments for both serious risk acceptances as 
well as Air Combat Command direction restricting pilots weighing less 
than 136 pounds from flying until further notice.
    Ms. Speier. What responsibility does Martin-Baker have for the 
ejection seat problem?
    General Harrigian. This question is in the oversight and 
jurisdiction of the Joint Program Office and I defer to their answer of 
the same question.
    Ms. Speier. Did considerations about U.K. participation in the F-35 
program motivate the decision to award the contract to Martin-Baker?
    General Harrigian. This question is in the oversight and 
jurisdiction of the Joint Program Office and I defer to their answer of 
the same question.
    Ms. Speier. AT&L is proposing a block buy of over 400 F-35 aircraft 
in FY19 and FY20. Do you consider this a block buy, and if it were 
enacted, what incentive would the contractor have to fix problems like 
the ejection seat and mission fusion issues in aircraft that have 
already been purchased?
    General Harrigian. This question is in the oversight and 
jurisdiction of the Joint Program Office and I defer to their answer of 
the same question.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. LAMBORN
    Mr. Lamborn. Could you please provide complete data of ejection 
seat envelope testing (whether each test was successful or unsuccessful 
at various pilot weights and airspeeds): one for all testing performed 
with the Gen II helmet, and the other for all testing performed with 
the Gen III helmet? I am particularly interested in what testing has 
been done in the middle of the envelope versus the edges.
    General Bogdan. Ejection testing is typically performed for one of 
two reasons: 1) as a development test to evaluate the performance of 
concept under consideration or 2) to demonstrate performance of a 
planned flight configuration to support airworthiness certification of 
the system. Tests done under the first objective are not given formal 
success/failure designations, whereas tests performed under the second 
objective are. Tests that are not accepted as supporting airworthiness 
certification or are accepted but result in a need to get formal risk 
acceptance are considered unsuccessful. Tests that are accepted as 
supporting airworthiness certification without the need for risk 
acceptance are considered successful. Tests in which insufficient data 
was collected or the test method compromised the test are considered 
no-tests.
    Figure 1 below depicts the weights and speeds at which Gen II and 
Gen III Helmet Mounted Display (HMD) ejection tests have been 
performed. Testing has been performed at different pilot weight and 
ejection speed conditions, including the middle of the envelope. The 
aircraft development program has included multiple seat and HMD 
configurations. From May 2007 to Dec 2010 forty-five (45) ejection 
tests were performed utilizing a Gen II HMD. From Oct 2013 to the 
present, twelve (12) ejection tests have been performed for the Gen III 
HMD. The forty-five (45) tests performed with the Gen II HMD break out 
as follows:
    <bullet>  7 development tests done with the System Development and 
Demonstration (SDD) version of the ejection seat (no pass/fail)
    <bullet>  1 failure with the SDD version of the ejection seat, 
which was addressed by a seat design change
    <bullet>  1 failure with the SDD version of the ejection seat that 
required risk acceptance
    <bullet>  4 successful tests with the SDD version of the ejection 
seat
    <bullet>  10 development tests done with the production version of 
the ejection seat (no pass/fail)
    <bullet>  2 no-tests (no pass/fail)
    <bullet>  1 failure with the production version of the ejection 
seat, which was addressed by a seat design change
    <bullet>  19 successful tests with the production version of the 
ejection seat
    Five of the tests with the SDD seat and four of the tests with the 
production seat were conducted with mid-weight manikins. The 
airworthiness certification for the Gen II HMD in the LRIP ejection 
seat included 19 successful tests conducted with manikins weighing from 
103,136, and 245 lbs at speeds ranging from 0 to 550 kts.
    Of the twelve (12) Gen III tests conducted to date, seven (7) tests 
have been unsuccessful. These test failures have resulted in aircrew 
restrictions and risk acceptance for the impacted pilot weights. Design 
changes to the HMD and the ejection seat are being pursued. The failed 
tests will be repeated with the design changes in place. [See Figure 1 
next page.]


 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
 
 
 
 
          Figure 1--Gen II and Gen III HMD Ejection Tests

    Mr. Lamborn. Could you please provide a summary of how many 
ejection seat sled tests have been performed to date, the period of 
time that encompasses, and the total cost incurred by the U.S. taxpayer 
to date? How many additional sled tests will be required to certify the 
current F-35 ejection seat as fully qualified, as well as validate the 
three proposed solutions, and what will be the corresponding cost to 
the U.S. taxpayer?
    General Bogdan. Ejection testing began in 2005 and has carried 
through 2015. These tests included:
    <bullet>  Eight (8) tests in 2005 performed as proof of concept 
testing, utilizing Gen I HMDs and other early model/legacy helmets. 
These tests were not performed with Gen II or III HMDs.
    <bullet>  Sixteen (16) tests in 2006 developing and certifying the 
-1 seat for use in the first F-35 aircraft. These tests utilized Gen I 
HMDs or legacy helmets (not Gen II or III HMDs).
    <bullet>  31 tests between 2007 and 2009 developing and certifying 
the -2 seat for use in the System Development and Demonstration (SDD) 
aircraft, 13 of which were performed using Gen II HMDs. None were 
performed with Gen III HMDs. The rest utilized Gen I HMDs or legacy 
helmets.
    <bullet>  32 tests between 2009 and 2010 developing and certifying 
the -4 seat for use in the Low-Rate Initial Production (LRIP) aircraft, 
all of which utilized Gen II HMDs.
    <bullet>  Four (4) tests between 2012 and 2014 assessing potential 
seat changes, utilizing Gen I or legacy helmets.
        <bullet>  NOTE: These 4 were Design Verification Tests run 
        completely by Martin-Baker. The F-35 JPO was not involved in 
        those tests and did not fund those tests.
    <bullet>  Twelve (12) tests between 2012 and 2015 developing and 
certifying the Gen III Helmet Mounted Display (HMD) for use in SDD and 
LRIP aircraft, all of which utilized Gen III HMDs.
    The current plan is to perform approximately 25 ejection tests to 
qualify the final ejection seat/HMD solution. At approximately $500K 
per test, the cost of 99 funded tests to date is approximately $49.5M, 
and $12.5M for the remaining planned tests.
    Mr. Lamborn. Regarding the ``Light or Heavy'' switch, what would be 
the consequences if a pilot ejects with the switch inadvertently in the 
incorrect position?
    General Bogdan. If a pilot ejects with the switch inadvertently in 
the incorrect position they would have an elevated risk of injury 
during a particular phase of the ejection sequence based on their 
weight:
    If a light weight aircrew ejected with the switch in the heavy 
weight setting, they would have an elevated risk of injury due to 
parachute opening shock. It is expected that the risk of injury would 
be of a similar order of magnitude to the risk of injury to a similar 
weight aircrew ejecting from legacy aircraft with a Helmet Mounted 
Display (HMD).
    If a heavy weight aircrew ejected with the switch in the light 
weight setting, they would be at increased risk of impacting the ground 
prior to the parachute decelerating them to a safe descent velocity if 
they were to eject at low altitude. It is expected that the risk of 
injury would be of a similar order of magnitude to the risk of injury 
to similar weight aircrew ejecting from legacy aircraft. There is not 
increased risk to a heavy pilot ejecting at higher altitudes if the 
switch were improperly set to the light weight setting.
    The hazards associated with inadvertent or incorrect selection will 
be reviewed to ensure controls are implemented to minimize the 
realization of this risk.
    Mr. Lamborn. Could you please provide your corresponding analysis 
that leads you to conclude that there is not any increased risk of 
injury for pilots weighing more than 136 pounds?
    General Bogdan. The analysis performed does show a slightly 
increased level of risk for pilots in the 136-165 lbs weight range, but 
that injury potential is significantly lower than for the < 136 lbs 
weight population. The analysis, contained in a System Safety Risk 
Assessment, assesses the risk at the Serious level. This is a 
conservative assessment based upon a set of worst case assumptions to 
determine the appropriate level within the Department of Defense at 
which the risk acceptance needed to be made. This approach assures that 
the safety risk is not underestimated and provides a worst case 
assessment of the pilot risk.
    This risk was recommended by the Program Executive Officer, Lt Gen 
Bogdan for US Service acceptance. Both the USAF and USN/USMC have 
accepted the risk associated with this pilot population.
    Mr. Lamborn. Who exactly are the ``air-worthiness authorities'' 
making risk assessments and decisions for the F-35 ejection seat?
    General Bogdan. Airworthiness is a DOD/Service responsibility that 
flows from US Code Title X to DOD, and then to the commanders of Naval 
Air Systems Command (NAVAIR) and Air Force Life Cycle Management Center 
(AFLCMC). For fielded aircraft, airworthiness authority resides with 
VADM Grosklags, Commander, NAVAIR for F-35Bs and F-35Cs, and Lt Gen 
Thompson, Commander, AFLCMC for F-35As.
    For test aircraft in the Development program, the F-35 Program 
Executive Officer (PEO), currently Lt Gen Chris Bogdan, is the 
airworthiness authority. Gen Bogdan uses his Program Office staff and 
the NAVAIR and AFLCMC engineering staffs to make recommendations on the 
airworthiness of the Developmental test fleet.

                                  [all]
</pre></body></html>
